TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Background Investigation Process
                        Needs Improvements to Ensure
                   Investigations Are Completed Timely and
                                  Effectively



                                          March 28, 2007

                              Reference Number: 2007-20-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 28, 2007


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Background Investigation Process Needs
                             Improvements to Ensure Investigations Are Completed Timely and
                             Effectively (Audit # 200520033)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 Background Investigation Process. The overall objective of this review was to determine
 whether the IRS’ current background investigation process ensures investigations are completed
 timely and effectively and assures management that IRS and contractor employees are suitable
 for employment. This audit was part of the statutory audit coverage under the Information
 Systems Programs and is included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS maintains sensitive financial information for more than 226 million taxpayers. Because
 many IRS and contractor employees must have access to sensitive taxpayer information to
 administer the nation’s tax system, the IRS must be particularly cognizant of hiring only those
 applicants with the highest integrity. Unsuitable IRS and contractor employees could gain access
 to sensitive taxpayer information for unauthorized purposes, including identity theft.
                   The Background Investigation Process Needs Improvements to
                    Ensure Investigations Are Completed Timely and Effectively




Synopsis
Background investigations are the initial step in the process of ensuring the highest standards of
honesty, integrity, and security are met. We analyzed the timeliness and effectiveness of IRS,
contractor, bank lockbox,1 and contract cleaning crew employee background investigations.
The IRS’ process for prescreening its employees prior to conducting the background
investigations on employees was appropriate and effective. IRS employees were fingerprinted,
and preliminary checks were completed prior to the employees gaining access to IRS facilities
and systems. Also, IRS employee background investigations were appropriate for the level of
risk associated with the positions.
However, background investigations were not completed timely for IRS and contractor
employees. The IRS did not complete 77 percent of the IRS employee investigations and
72 percent of the contractor employee investigations we sampled within established IRS
baselines. In addition, business unit managers authorized some contractor employees to gain
access to IRS computer systems before fingerprint analyses had been received by the IRS. The
lack of documentation in the case files for IRS and contractor employee background
investigations precluded us from identifying the causes of the delays. Delays in processing
background investigations increase the risk that the IRS may be hiring unsuitable IRS and
contractor employees that could compromise sensitive taxpayer information, physically harm
employees, and disrupt operations.
Furthermore, temporary bank (lockbox) employees who assist lockbox sites in handling more
than $360 billion in taxpayer remittances per year receive only an annual fingerprint check. In
2005, 54 remittances totaling approximately $2.8 million were stolen from 1 of the lockbox sites.
Foreign nationals2 were responsible for the majority of the theft. The IRS is currently working
with the Department of the Treasury Financial Management Service to revise the requirements
for hiring temporary lockbox employees. At a minimum, temporary lockbox employees shall be
legal permanent residents who have resided in the United States for at least 5 years. If an
effective method to establish residency for temporary lockbox employees can not be determined,
the Financial Management Service may consider hiring only United States citizens in the future.
Also, background investigations were not always required for cleaning contractor employees
who had access to IRS office space. Of the 19 contracts we reviewed, 8 (42 percent) did not
require background investigations on cleaning contractor employees. In another review
conducted in 9 locations, the Treasury Inspector General for Tax Administration Office of

1
  The IRS lockbox program consists of commercial banks that have contracted with the Financial Management
Service to process tax payments. This program was designed to accelerate the deposit of tax payments by having
taxpayers send their payments to commercial banks rather than to the IRS.
2
  Any person who is not a citizen or a permanent resident alien of the United States.


                                                                                                                 2
                  The Background Investigation Process Needs Improvements to
                   Ensure Investigations Are Completed Timely and Effectively



Investigations found that 17 cleaning contractor employees were given access to IRS facilities
without having had background investigations. Three of these 17 employees were using stolen
Social Security Numbers, and their true identities are unknown. Hiring cleaning contractor
employees without performing background investigations increases the risk that unsuitable
individuals can gain access to IRS facilities where taxpayer information is vulnerable.
Unsuitable cleaning contractor employees could harm IRS employees, steal taxpayer identities
and Federal Government assets, and obtain unauthorized sensitive tax information. Compliance
with recent requirements from the Office of Management and Budget will reduce this risk.

Recommendations
We recommended the Chief, Mission Assurance and Security Services, ensure the Automated
Background Investigation System3 is programmed to track the time expended to process
background investigations. Alerts and reports to management should be developed to enable
management to determine when and where delays occur and ensure investigations are completed
within established baselines. The Chief, Mission Assurance and Security Services, should also
periodically remind business unit managers, contracting officials, and system administrators to
review documentation verifying that contractor employees have been prescreened before they are
given access to computer systems. Because actions are underway to improve background
investigations of temporary bank employees and cleaning contractor employees, we made no
additional recommendations.

Response
IRS management agreed with both of our recommendations. The Automated Background
Investigation System tracks the amount of time it takes to process an investigation and managers
have the ability to use inventory reports to track case actions and case delays. In addition, an
alert will be deployed that will warn Investigative Analysts 90 days prior to employees’
probationary periods ending. The Program Manager, Personnel Security and Investigations, will
also work with the Mission Assurance and Security Services organization’s communications
liaison to post periodic notices reminding business unit managers, contracting officials, and
system administrators of their responsibilities prior to adding contractor employees to computer
systems. Management’s complete response to the draft report is included as Appendix VIII.




3
  The Automated Background Investigation System is used by the IRS to track and monitor background
investigations while they are being conducted. Employees manually update the system.



                                                                                                     3
               The Background Investigation Process Needs Improvements to
                Ensure Investigations Are Completed Timely and Effectively



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs) at
(202) 622-8510.




                                                                                            4
                      The Background Investigation Process Needs Improvements to
                       Ensure Investigations Are Completed Timely and Effectively




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Applicants Were Appropriately Prescreened; However, Employee
          Background Investigations Were Not Completed Timely............................Page 3
                    Recommendation 1:..........................................................Page 4

          Contractor Employees Were Given Access to Computer Systems
          Prematurely, and Background Investigations Were Not Completed
          Timely ...........................................................................................................Page 4
                    Recommendation 2:..........................................................Page 6

          Background Investigation Requirements for Lockbox Employees
          and Cleaning Contractor Employees Need Additional Safeguards ..............Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Internal Revenue Service Employee Background
          Investigation Process ....................................................................................Page 15
          Appendix V – Contractor Employee Background Investigation Process.....Page 16
          Appendix VI – Types of Background Investigations Identified in
          Internal Revenue Service Employee Case Reviews .....................................Page 17
          Appendix VII – Types of Background Investigations Identified in
          Contractor Employee Case Reviews.............................................................Page 18
          Appendix VIII – Management’s Response to the Draft Report ...................Page 19
          The Background Investigation Process Needs Improvements to
           Ensure Investigations Are Completed Timely and Effectively




                         Abbreviations

GSA                General Services Administration
HSPD-12            Homeland Security Presidential Directive-12
IRS                Internal Revenue Service
NAC                National Agency Check
NACI               National Agency Check and Inquiry
OPM                Office of Personnel Management
PS&I               Personnel Security and Investigations
                The Background Investigation Process Needs Improvements to
                 Ensure Investigations Are Completed Timely and Effectively




                                      Background

The Internal Revenue Service (IRS) maintains sensitive financial information for more than
226 million taxpayers. Because many IRS employees and contractors must have access to
sensitive taxpayer information to administer the nation’s tax system, the IRS must be particularly
cognizant of hiring only those applicants with the highest
integrity. The IRS uses several controls to deter and detect         Background investigations
abuse of sensitive information, but conducting background           provide some assurance that
investigations is the initial step in the process of ensuring the  IRS and contractor employees
highest standards of honesty, integrity, and security are met.      can be trusted with sensitive
The background investigation process provides at least some             taxpayer information.
assurance that IRS and contractor employees can be trusted
with sensitive taxpayer information.
The IRS mandates that all applicants accepted for positions be prescreened prior to their entry
into the IRS workplace. During prescreening, the IRS fingerprints the applicant, checks for
compliance with Federal tax laws, and performs other checks that must be evaluated prior to
allowing unescorted access into IRS facilities. If the prescreening results are favorable, and the
applicant becomes an employee, the IRS initiates a more thorough background investigation.
The background investigation process for employees involves several IRS functions, each with a
different role for completing the investigation. Appendix IV outlines the current IRS employee
background investigation process. The scope of an employee background investigation varies
based on the risks associated with the employee’s position. Appendix VI outlines the different
types of IRS employee background investigations for the various risk levels.
Contractor employees must also be prescreened prior to being provided access to IRS facilities
and sensitive tax systems. If a contractor employee is expected to be working for more than
30 calendar days, several prescreening checks are required, including fingerprint results and
Federal tax compliance. All of the prescreening must be evaluated prior to allowing a contractor
employee entry into IRS facilities. If only positive information is found, the IRS provides the
contractor employee access to the facilities and systems needed to complete the given task and
initiates a more thorough background investigation. Each contractor employee is required to
have a background investigation appropriate to the risks associated with the job that he or she
will perform. Appendix V outlines the steps involved in the contractor employee background
investigation process. Appendix VII outlines the different types of contractor employee
background investigations for the various risk levels.
This review was performed at the office of Mission Assurance and Security Services in the IRS
National Headquarters and the National Background Investigations Center facilities in Florence,
Kentucky, during the period November 2005 through December 2006. The audit was conducted

                                                                                           Page 1
               The Background Investigation Process Needs Improvements to
                Ensure Investigations Are Completed Timely and Effectively



in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                  The Background Investigation Process Needs Improvements to
                   Ensure Investigations Are Completed Timely and Effectively




                                     Results of Review

Applicants Were Appropriately Prescreened; However, Employee
Background Investigations Were Not Completed Timely
The IRS appropriately prescreened applicants for IRS positions before granting them access to
its facilities and systems. The prescreening test results included fingerprints and the applicants’
compliance with Federal tax laws along with other requirements. Our review of a judgmental
sample of 54 IRS employees determined these steps were taken for all 54 (100 percent) of the
employees. This control is an important step to reduce the IRS’ risk of providing access to
sensitive data to unsuitable persons. Also, all 54 of the IRS employees had received the
appropriate type of background investigation for the risk level of their positions.

Employee background investigations were not completed timely
Because IRS employees are given access to systems and facilities while their background
investigations are being conducted, it is essential that the investigations be completed as quickly
as possible. Prior to our review, the IRS had established specific timeliness goals for completing
IRS employee background investigations based on the risk of the employee’s position. For
example, it required investigations for high-risk positions to be completed within 105 calendar
days and investigations for moderate-risk positions to be completed within 180 calendar days
from the employees’ enter-on-duty date. In March 2004, the IRS stated these baselines were not
feasible and subsequently revised its managers’ performance plans to require that all IRS
employee background investigations be completed within 200 calendar days from the
employees’ enter-on-duty date.
We reviewed 51 of the 541 IRS employee background
investigations previously mentioned to determine whether
                                                                 IRS employee background
the investigations were completed timely. Due to limited       investigations were untimely
resources, the IRS sometimes contracts with the Office of      in 77 percent of the cases we
Personnel Management (OPM) to complete background                        reviewed.
investigations. In our sample, 7 of the 51 background
investigations were performed by the OPM; the IRS performed the other 44 investigations. Of
the 44 background investigations completed by the IRS, 34 (77 percent) were not completed
within established IRS baselines and 28 (64 percent) did not meet managers’ performance plan


1
 Three of the 54 cases were excluded because the employees had resigned and their investigations were not
completed.
                                                                                                            Page 3
                  The Background Investigation Process Needs Improvements to
                   Ensure Investigations Are Completed Timely and Effectively



expectations. On average, the IRS took 278 calendar days to complete investigations for
high-risk positions and 249 calendar days to complete investigations for moderate-risk positions.
In Fiscal Year 2005, the OPM averaged 562 calendar days to complete 92 background
investigations. In our sample, the OPM conducted 7 background investigations, averaging
366 calendar days for 5 moderate-risk investigations and 305 calendar days for 2 low-risk
investigations. Of the 7 investigations, 3 (43 percent) took more than 1 year to complete.
The background investigation process involves several IRS functions and various outside
agencies. The lack of documentation in the case files precluded us from identifying the causes of
the delays. While the IRS recently put budget codes into its management information system to
track costs for background investigations, it currently does not monitor and track case processing
delays in completing background investigations. Delays in processing background investigations
increase the risk that the IRS may be hiring unsuitable employees who could compromise
sensitive taxpayer information, physically harm employees, and disrupt operations.

Recommendation
Recommendation 1: The Chief, Mission Assurance and Security Services, should ensure the
Automated Background Investigation System2 is programmed to track the time expended to
process background investigations. Alerts and reports to management should be developed to
enable management to determine when and where delays occur and ensure investigations are
completed within established baselines. Analyses of this information will also help identify
resource requirements.
        Management’s Response: IRS management agreed with this recommendation. The
        Automated Background Investigation System tracks the amount of time it takes to
        process an investigation and managers have the ability to use inventory reports to track
        case actions and case delays. In addition, an alert will be deployed that will warn
        Investigative Analysts 90 days prior to the ending of employees’ probationary periods.

Contractor Employees Were Given Access to Computer Systems
Prematurely, and Background Investigations Were Not Completed
Timely
The IRS granted contractor employees access to its computer systems prior to receiving their
prescreening results. Contractor employees had the appropriate background investigations for
the risk level of their positions; however, background investigations were not completed timely.
Granting contractor employees access to sensitive systems without prescreening and delays in

2
  The Automated Background Investigation System is used by the IRS to track and monitor background
investigations while they are being conducted. Employees manually update the system.
                                                                                                     Page 4
                   The Background Investigation Process Needs Improvements to
                    Ensure Investigations Are Completed Timely and Effectively



processing background investigations increase the IRS’ risk that unsuitable contractor employees
may gain access to sensitive data.

Some contractor employees were provided access to IRS systems before their
prescreening tests were completed
Before contractor employees are allowed access to computer systems, business unit managers
must request the PS&I office to conduct fingerprint tests. If results are positive, the PS&I office
forwards a letter to the business unit manager, through the Contracting Officer’s Technical
Representative,3 stating that the contractor employee has qualified for access. The business unit
manager is required to attach this letter to the system access request form and forward the
documents to the appropriate system administrator before a contractor employee is granted
access to an IRS system.
We selected a judgmental sample of 48 contractor employees to determine if they had been given
access to computer systems prior to completion of their prescreening tests. The IRS provided the
dates on which the contractor employees had been granted access to systems for only
11 (23 percent) of the 48 contractor employees in our sample. Business unit managers gave
5 (45 percent) of these 11 contractor employees access to IRS computer systems before they had
received the prescreening test results from the PS&I office.
IRS business unit managers did not ensure contractors had been prescreened prior to requesting
that they be given access to IRS systems. In addition, system administrators may have added
contractors to the systems without receipt of proper documentation verifying that all
prescreening tests had been completed. We were unable to determine if the other 37 contractor
employees in our sample had been given access to sensitive systems prior to completion of their
prescreening tests because the IRS could not provide the documentation.

Contractor employee background investigations were not completed timely
Because contractor employees are given access to systems and facilities while their background
investigations are being conducted, the investigations must be completed as quickly as possible.
The IRS’ baselines for completing contractor employee background investigations require that
investigations for high-risk positions be completed within 105 calendar days, investigations for
moderate-risk positions within 75 calendar days, and investigations for low-risk positions within
30 calendar days from the contractor employees’ enter-on-duty date. As with IRS employee
background investigations, the IRS stated the original baselines were not feasible and revised its
managers’ performance plans to require a baseline of 200 calendar days for completion for all
contractor employee background investigations from the enter-on-duty date.


3
  Contracting Officer’s Technical Representatives are responsible for the contract award and administration process;
they must ensure all terms and conditions of the contracts they manage are met and taxpayer dollars are prudently
spent.
                                                                                                            Page 5
                The Background Investigation Process Needs Improvements to
                 Ensure Investigations Are Completed Timely and Effectively



We selected and reviewed another judgmental sample of 50 IRS contractor employee
background investigations. On average, the IRS took 183 calendar days to complete
investigations for high-risk positions, 106 calendar days to complete investigations for
moderate-risk positions, and 53 calendar days to complete investigations for low-risk positions.
In our sample, 36 (72 percent) of the 50 investigations were not completed within established
IRS baselines. However, only 6 (12 percent) exceeded the managers’ performance plan
expectations.
We could not determine the cause of the delays in contractor employee background
investigations because actions taken were not sufficiently documented in the case files. As with
IRS employees, the IRS is currently defining budget codes to track the time and cost of the
background investigation process to enable it to monitor and compute the costs associated with
contractor employee investigations. Enabling the Automated Background Investigation System
to track the time it takes to complete individual processes for background investigations will help
the PS&I office determine where delays occur. Processing delays increase the risk that the IRS
is hiring unsuitable contractor employees who could gain access to sensitive tax systems or
taxpayer information.

Recommendation
Recommendation 2: The Chief, Mission Assurance and Security Services, should
periodically remind business unit managers, Contracting Officer’s Technical Representatives,
and system administrators to review documentation verifying that contractors have been
prescreened before they are given access to computer systems.
       Management’s Response: IRS management agreed with this recommendation. The
       Program Manager, PS&I office, will coordinate with the Mission Assurance and Security
       Services organization’s communications liaison to post periodic notices to remind
       business unit managers, Contracting Officer’s Technical Representatives, and system
       administrators of their responsibilities in ensuring investigations have been conducted on
       contractors prior to their being granted access to computer systems.




                                                                                            Page 6
                  The Background Investigation Process Needs Improvements to
                   Ensure Investigations Are Completed Timely and Effectively



Background Investigation Requirements for Lockbox4 Employees and
Cleaning Contractor Employees Need Additional Safeguards
Homeland Security Presidential Directive-12 (HSPD-12)5 guidelines require the IRS to conduct a
background investigation on all IRS employees and contractor employees who need access to its
facilities and systems for more than 6 months. In addition, short-term contractor employees (less
than 6 months) need a fingerprint check and a Federal Bureau of Investigation criminal check;
however, a full background investigation is not required. We determined that the background
investigation requirements for lockbox employees and cleaning contractor employees were
insufficient to protect taxpayer remittances and safeguard IRS employees and facilities.

Background investigations for lockbox employees were insufficient
The Department of the Treasury Financial Management Service enters into agreements with
qualified financial institutions to perform lockbox collection services on behalf of the IRS. The
financial institutions employ lockbox employees at 8 locations to process more than $360 billion
in taxpayer remittances annually. In 2005, 54 remittances totaling approximately $2.8 million
were stolen from 1 of the sites. Foreign nationals6 were responsible for the majority of the theft.
In addition to the lost revenue, thefts cause undue burden for the taxpaying public. For example,
a stolen remittance will generate a balance-due notice to the taxpayer, requiring the taxpayer to
provide evidence and proof that the payment was timely made.
Under these agreements, the IRS sets guidelines for hiring and security at the lockbox sites. The
only type of screening required for temporary lockbox employees is an annual fingerprint check
from the Federal Bureau of Investigation. This type of check is insufficient for foreign nationals
living in the United States because many have not been in the country long enough for a criminal
history check to be meaningful, and the IRS has no means to determine their criminal history
prior to entering the United States.




4
  The IRS lockbox program consists of commercial banks that have contracted with the Financial Management
Service to process tax payments. This program was designed to accelerate the deposit of tax payments by having
taxpayers send their payments to commercial banks rather than to the IRS.
5
  HSPD-12 (dated October 27, 2005) requires agency implementation of secure and reliable Federal
Governmentwide forms of identification of employees and contractors; it also mandates when background
investigations should be completed on new and current employees.
6
  Any person who is not a citizen or a permanent resident alien of the United States.
                                                                                                         Page 7
                   The Background Investigation Process Needs Improvements to
                    Ensure Investigations Are Completed Timely and Effectively



An August 5, 2005, memorandum issued by the Office of Management and Budget7 to all
Federal Government agencies provided guidance on implementing HSPD-12 and acknowledged
that foreign national employees and contractor employees
may not have lived in the United States long enough for a     Background investigations on
limited background investigation to be meaningful. The           lockbox employees were
                                                                insufficient. Many of these
Office of Management and Budget is in the process of
                                                                employees are from foreign
establishing an interagency working group to explore             countries, and the annual
whether guidance is necessary with respect to background          fingerprint check is not
investigations on foreign national employees and                         adequate.
contractor employees. One recommendation under
consideration is to give the OPM access to State
Department databases to determine foreign criminal activity of the applicant.
The Financial Management Service is currently negotiating its lockbox agreements with banks
for 2007. During peak processing periods, the work performed at lockbox sites is typically
accomplished using temporary staff. The IRS is currently working with the Financial
Management Service to revise the requirements for hiring temporary lockbox employees. At a
minimum, temporary lockbox employees shall be legal permanent residents who have resided in
the United States for at least 5 years. If an effective method to establish residency for temporary
lockbox employees can not be determined, the Financial Management Service may consider
hiring only United States citizens in the future.

Background investigations for cleaning service employees were not conducted
Hiring cleaning contractor employees without performing background investigations increases
the risk that unsuitable individuals can gain access to IRS facilities where taxpayer information is
vulnerable. Unsuitable cleaning contractor employees could harm IRS employees, steal taxpayer
identities and Federal Government assets, and obtain unauthorized sensitive tax information.
The General Services Administration (GSA) manages Federal Government buildings and is
responsible for contracting for cleaning services. The GSA is also responsible for contracting for
cleaning services when the IRS leases space from third parties. We requested 20 GSA cleaning
contracts for IRS space to determine if background investigations were required on the cleaning
contractor employees entering IRS facilities. We received 19 of the 20 contracts from the GSA
(1 of the contracts had expired). Five of the IRS facilities were Federal Government buildings
controlled by the GSA; the other 14 were leased buildings controlled by the lessor. Of the
19 contracts we reviewed, 8 (42 percent) did not require background investigations on cleaning
contractor employees. Although the other 11 (58 percent) contracts had specific language
requiring background investigations, we were unable to confirm that background investigations

7
  The Office of Management and Budget is a division of the Executive Office of the President of the United States
that administers and prepares the Federal Government budget and issues guidance on how to improve management
practices Federal Governmentwide.
                                                                                                          Page 8
                The Background Investigation Process Needs Improvements to
                 Ensure Investigations Are Completed Timely and Effectively



had been conducted for cleaning contractor employees because the GSA was not willing to
provide their names due to privacy concerns.
In another review conducted by the Treasury Inspector General for Tax Administration Office of
Investigations, all facilities in the state of Arizona in which the IRS occupies office space were
reviewed to determine whether cleaning contractor employees had had some type of background
investigation completed prior to working in an IRS facility. The Office of Investigations
determined that 17 individuals were assigned cleaning
duties for the 9 office locations maintained by the IRS
throughout Arizona. Neither the IRS nor the GSA knew or                   Cleaning contractor
                                                                     employees were using stolen
readily had available the names and identity information for         Social Security Numbers, and
these individuals, and the GSA, at the request of the Office            their true identities are
of Investigations, obtained the information from its                            unknown.
contractors. Three (18 percent) of the 17 employees were
using stolen Social Security Numbers, and their true
identities are unknown.
The IRS did not ensure the GSA included specific language in contracts to require background
investigations for the cleaning contractor employees. The GSA is aware of the new requirements
of HSPD-12 and stated it will have background investigations completed for all new and current
janitorial employees by the required HSPD-12 implementation deadline of October 27, 2007.
The IRS and the GSA are in the process of initiating, identifying, and requesting that these
background investigations be completed.
Because actions are underway to improve background investigations of temporary bank
employees and cleaning contractor employees, we are making no additional recommendations.




                                                                                           Page 9
                   The Background Investigation Process Needs Improvements to
                    Ensure Investigations Are Completed Timely and Effectively



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’ current background
investigation process ensures investigations are completed timely and effectively and assures
management that IRS and contractor employees are suitable for employment. To accomplish
this objective, we:
I.       Reviewed current Department of the Treasury and IRS policies and procedures for
         processing and conducting background investigations on IRS and contractor employees
         and obtained the criteria PS&I office employees follow to process and conduct
         background investigations.
II.      Determined whether background investigations for IRS employees, IRS contractor
         employees, GSA cleaning contractor employees, and bank lockbox1 employees were
         completed timely.
         A. Determined whether background investigations for IRS employees and IRS
            contractor employees were completed timely.
             1. Obtained a download of Fiscal Years 2004 and 2005 Security Entry and Tracking
                System2 data with a population of 22,559 IRS employees and 6,844 contractor
                employees and the Automated Background Investigation System3 data with
                13,552 IRS employees and 8,285 contractor employees to determine the
                populations of IRS employees and contractor employees that were required to
                have background investigations. We determined the Automated Background
                Investigation System had multiple records for some of the people while the
                Security Entry and Tracking System data only had one record for each person.
                This was due to the Automated Background Investigation System recording
                multiple investigations on the same person where the Security Entry and Tracking
                System only records a person only once. Further validations of these downloads



1
  The IRS lockbox program consists of commercial banks that have contracted with the Financial Management
Service to process tax payments. This program was designed to accelerate the deposit of tax payments by having
taxpayers send their payments to commercial banks rather than to the IRS.
2
  The Security Entry and Tracking System is a Department of the Treasury subsystem of the National Finance
Center personnel/payroll system. It is used to track the completion of background investigations, fingerprints, and
security clearances for applicants, contractors, consultants, volunteers, and employees.
3
  The Automated Background Investigation System is used by the IRS to track and monitor background
investigations while they are being conducted. Employees manually update the system.
                                                                                                            Page 10
               The Background Investigation Process Needs Improvements to
                Ensure Investigations Are Completed Timely and Effectively



              were unwarranted because we only used the information to select our samples of
              employees and contractors.
          2. From the download, selected judgmental samples of 54 IRS employees and
             50 contractor employees and reviewed Security Entry and Tracking System data,
             Personnel Office data, and case files to determine whether IRS and contractor
             employees’ fingerprints were processed timely. Judgmental samples were used
             because we were not projecting the results.
          3. Reviewed database information and case files to determine whether the
             entry-on-duty dates for the IRS and contractor employees in the samples were
             within the past 1 year to 2 years and the investigations were completed within a
             1-year time period from the enter-on-duty date.
       B. Determined whether background investigations for GSA cleaning contractor
          employees working within IRS facilities were completed timely.
          1. Reviewed IRS contracts with the GSA to determine whether the contracts require
             the GSA to conduct a background investigation or fingerprint test prior to hiring a
             cleaning contractor employee.
          2. Selected a judgmental sample of 20 IRS facilities from a population of 750 with
             the highest risk of not having background investigations completed on cleaning
             contractor employees. A judgmental sample was used because we were not
             projecting the results.
       C. Determined whether background investigations for bank lockbox employees were
          completed timely.
          1. Contacted the Financial Management Service and obtained one IRS lockbox
             contract out of eight to determine whether background investigations were
             required. The lockbox contracts all contained the same wording (i.e., adopting the
             same lockbox regulations).
          2. Selected a judgmental sample of 63 of 2,189 bank lockbox employees from the
             Automated Background Investigation System. A judgmental sample was used
             because we were not projecting the results.
III.   Determined whether background investigations for IRS employees, IRS contractor
       employees, GSA cleaning contractor employees, and bank lockbox employees were
       effective.
       A. Determined whether background investigations for IRS employees and IRS
          contractor employees were effective.



                                                                                        Page 11
        The Background Investigation Process Needs Improvements to
         Ensure Investigations Are Completed Timely and Effectively



   1. Reviewed case files for the samples in Step II.A.2. to determine the average
      length of time spent on the background investigation process before the IRS
      employees or contractor employees were approved or terminated.
   2. Reviewed system access forms to determine the dates on which the IRS
      employees or contractor employees were given access to IRS systems before
      completion of their background investigations.
B. Determined whether background investigations for GSA cleaning contractor
   employees working within IRS facilities were effective. We contacted the GSA to
   obtain contractor and cleaning crew names, Social Security Numbers, addresses, and
   any other information to determine the number of employees and their identities. We
   were unable to determine whether a prudent decision was made in hiring the
   employees to clean IRS facilities because the GSA was reluctant to give us the
   information regarding cleaning contractor employees selected.
C. Determined whether background investigations for bank lockbox employees were
   effective.




                                                                                Page 12
               The Background Investigation Process Needs Improvements to
                Ensure Investigations Are Completed Timely and Effectively



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Thomas Polsfoot, Audit Manager
Cari Fogle, Lead Auditor
George Franklin, Senior Auditor
Bret Hunter, Senior Auditor
Jimmie Johnson, Senior Auditor




                                                                                     Page 13
               The Background Investigation Process Needs Improvements to
                Ensure Investigations Are Completed Timely and Effectively



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief Human Capital Officer OS:HC
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons
       Chief, Agency-Wide Shared Services OS:A:F
       Chief Human Capital Officer OS:HC
       Chief, Mission Assurance and Security Services OS:MA




                                                                       Page 14
                    The Background Investigation Process Needs Improvements to
                     Ensure Investigations Are Completed Timely and Effectively



                                                                                                        Appendix IV

     Internal Revenue Service Employee Background
                  Investigation Process

           Human Capital Office                                                                        OPM
 1. Screens applicant, assembles paperwork and                                 1. Receives fingerprints and checks against Federal
 fingerprints, creates a database record for                                   Bureau of Investigation records.
 applicant.
                                                           Fingerprints        2. Performs National Agency Checks (NAC) and
 2. Sends fingerprints to the OPM.                                             National Agency Checks and Inquiries (NACI) for the
                                                                               IRS.
 3. Receives fingerprint results.
                                                                               3. Performs other investigations at the request of the
 4. Sends paperwork and request for                                            IRS.
 investigation to the National Background
 Investigations Center.
                                                           3. and 4. Request for
 5. Requests badge for applicant after positive            Investigation,                              NACs,            Contracted
 fingerprint results received.                             fingerprint results, and                    NACIs          Investigations
                                                           paperwork.




                  Badge
                                                                          National Background Investigations Center
                                                                   1. Receives paperwork and fingerprint results from the Human
                                                                   Capital Office.
         Physical Security
          Organization                                             2. Sends requests to the OPM for NACs, NACIs.
      Issues badge to applicant after                              3. Performs other investigations such as Limited Background
      approval from the Human                                      Investigations and Background Investigations.
      Capital Office.
                                                                   4. Contracts other investigations, such as Limited Background
                                             Adjudicated
                                                                   Investigations and Background Investigations to the OPM.
           Labor Relations                      Case
            Organization                                           5. Sends problem cases to Adjudication.

    Adjudicates case and sends results                             6. Updates database records throughout process for applicant.
    to National Background
    Investigations Center.


Source: The Treasury Inspector General for Tax Administration’s depiction of the IRS’ employee background
investigation process. For more detailed explanation of the types of employee background investigations see
Appendix VI.

                                                                                                                   Page 15
                   The Background Investigation Process Needs Improvements to
                    Ensure Investigations Are Completed Timely and Effectively



                                                                                                  Appendix V

      Contractor Employee Background Investigation
                        Process

        Contracting Officer’s                                                          PS&I Office
       Technical Representative                                 1. Assesses paperwork. (Paperwork is returned to the
    1. Assembles paperwork and ensures           Paperwork/
                                                                Contracting Officer’s Technical Representative if
    employee has fingerprints taken.             Fingerprints   incorrect or incomplete.)

    2. Sends paperwork and fingerprints                         2. Sends fingerprints to the OPM.
    (if not electronic) to the PS&I office.                     3. If fingerprints, tax check, and paperwork are
    3. Receives memorandum granting              Memorandum     favorable, grants interim access pending a favorable
    access for contractor employee.                             investigation and issues memorandum.

    4. Requests a badge and access card                         4. Continues investigation of contractor employee and
    for contractor employee.                                    updates database.
                                                 Memorandum
    5. Sends memorandum to appropriate                          5. Requests a NACI and other investigations from the
    IRS first-line manager.                                     OPM.
                                                                6. Adjudicates case if applicable.
                                 Memorandum
                                                                7. Issues memorandum indicating a favorable
    Memorandum/Badge                                            investigation.



                                  First-line Manager                   Fingerprints/          Request/
  Physical Security                                                       Results           Investigation
   Organization                 Authorizes access to
                                sensitive system(s) after
 Issues badge and               receiving the PS&I office
 access card based on           memorandum.
 memorandum from the                                                                        OPM
 PS&I office.
                                                                    1. Conducts fingerprint check against Federal
                                                                    Bureau of Investigation database.
                                                                    2. Runs database checks and other checks and sends
                                                                    results to the PS&I office.


Source: The Treasury Inspector General for Tax Administration’s depiction of the IRS’ contractor investigation
program. For a more detailed explanation on the types of contractor employee background investigations see
Appendix VII.

                                                                                                            Page 16
                    The Background Investigation Process Needs Improvements to
                     Ensure Investigations Are Completed Timely and Effectively



                                                                                                          Appendix VI

       Types of Background Investigations Identified in
      Internal Revenue Service Employee Case Reviews

        Figure 1: Suitability Background Investigations for Public Trust Positions
                  Type of
     Risk                                                                                            Example of
                Background                        Investigation Description                                            Job Duties
     Level                                                                                            Position
               Investigation

                                 The National Background Investigations Center and/or OPM                           Investigates
                                                   1
                                  conducts NACs and initiates a personal subject interview,                         potential criminal
                                   written inquiries, and/or personal contacts to educational                       violations and
                Background
      High                       institutions, employers, personal references, credit reporting     Special Agent   related financial
               Investigation
                                   agencies, and law enforcement agencies in regard to the                          crimes of the
                                 applicant or employee. The depth of coverage goes back 5                           Internal
                                                              years.                                                Revenue Code.

                                  The National Background Investigations Center and/or OPM
                                                                                                                    Meets with
                               conducts NACs and initiates a personal subject interview, written
                  Limited                                                                                           taxpayers and
                                 inquiries, and/or personal contacts to educational institutions,
    Moderate    Background                                                                          Revenue Agent   collects
                                employers, personal references, credit reporting agencies, and
               Investigation                                                                                        delinquent taxes
                                    law enforcement agencies in regard to the applicant or
                                                                                                                    from them.
                                     employee. The depth of coverage goes back 3 years.

                                The OPM conducts checks of national agencies and initiates
                                                                                                                    Extracts and
                               written inquiries to educational institutions, employers, personal
                         2                                                                                          sorts mail
      Low         NACI         references, and law enforcement agencies about the applicant           Mail Clerk
                                                                                                                    received at the
                               or employee. The results are sent to the National Background
                                                                                                                    IRS locations.
                                                     Investigations Center.

Source: The IRS National Background Investigations Center.

NACIs are performed by the OPM. The high- and moderate-risk investigations are performed by
the IRS National Background Investigations Center or may be contracted to the OPM to be
performed.




1
  NACs are investigations where the subject’s name is compared against multiple databases to determine if any
derogatory information exists from their history.
2
  NACIs are investigations performed by the OPM. They consist of two parts: NACs and inquiries/interviews (I)
with various references the subject provided that are conducted by an investigator.
                                                                                                                    Page 17
                       The Background Investigation Process Needs Improvements to
                        Ensure Investigations Are Completed Timely and Effectively



                                                                                                           Appendix VII

       Types of Background Investigations Identified in
             Contactor Employee Case Reviews

                Figure 1: IRS Contractor Employee Background Investigations
                   Type of
     Risk                                                                                              Example of
                 Background                         Investigation Description                                            Job Duties
     Level                                                                                              Position
                Investigation

                                                                                                                       Responsible for
                                     The National Background Investigations Center and/or OPM
                                                                                                                          the daily
                                  conducts NACs and initiates a personal subject interview, written
                                                                                                                       operations and
                  Background        inquiries, and/or personal contacts to educational institutions,     System
      High                                                                                                               users of a
                 Investigation     employers, personal references, credit reporting agencies, and      Administrator
                                                                                                                         particular
                                 law enforcement agencies in regard to the applicant or employee.
                                                                                                                         computer
                                               The depth of coverage goes back 5 years.
                                                                                                                           system.

                                   This type of investigation serves as the complete background
                                                                                                                            Usually
                                    investigation for IRS contractor employees in moderate-risk
                NAC with Law                                                                                            responsible for
                                 positions. The scope of the investigation is 5 years. Investigative     Systems
    Moderate                1                                                                                           building part of
                 and Credit           information may be obtained by personal, written, and/or           Engineer
                                                                                                                       an IRS computer
                                 telephone inquiry. Unfavorable information requires follow-up by
                                                                                                                            system.
                                                          personal contact.

                                   This type of investigation serves as the complete background
                                  investigation for contractor employees in low-risk positions and
                                                                                                                       Responsible for
                                     as the basis for interim access approval for the contractor        Custodial
      Low           Basic                                                                                               cleaning IRS
                                     employees in moderate- and high-risk positions awaiting            Employee
                                                                                                                         work areas.
                                     completion of a NAC With Law and Credit or background
                                                             investigation.

Source: The IRS PS&I Office.

On October 27, 2005, HSPD-12 required Federal Government agencies to be compliant with
new security standards for background investigations. The IRS is currently compliant with
HSPD-12 and has upgraded its investigations for these risk levels as follows:
      •      Low-risk positions require a NACI.
      •      Moderate-risk positions require a NACI and a credit check.
NACIs and NACIs with credit checks are traditionally contracted to the OPM. The background
investigations may be conducted by the IRS or contracted to the OPM.


1
 NAC with Law and Credit is for moderate risk investigations for contractor employees. The NAC is where the
applicant is checked against databases for derogatory information. The Law and Credit portion is where the
applicant’s law enforcement records are checked in the areas where he or she lived for the last 5 years and a credit
check is made to ensure the applicant does not have bad credit.
                                                                                                                       Page 18
   The Background Investigation Process Needs Improvements to
    Ensure Investigations Are Completed Timely and Effectively



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                         Page 19
The Background Investigation Process Needs Improvements to
 Ensure Investigations Are Completed Timely and Effectively




                                                      Page 20
The Background Investigation Process Needs Improvements to
 Ensure Investigations Are Completed Timely and Effectively




                                                      Page 21
